           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       CASE PROCESSING AND
       MANAGEMENT SYSTEM
    AND WORKLOAD MANAGEMENT


    June 2006   A-12-06-26012




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY

MEMORANDUM

Date:   June 15, 2006                                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Case Processing and Management System and Workload Management
        (A-12-06-26012)


        OBJECTIVE
        Our objective was to assess the ability of the Case Processing and Management
        System (CPMS) to improve workload management at hearing offices within the Office of
        Disability Adjudication and Review (ODAR).1

        BACKGROUND

        CPMS was designed to (1) control and process hearing claims and (2) produce
        management information. This system is one of the components of the Social Security
        Administration’s (SSA) electronic disability (eDib) initiative. eDib is a major SSA
        long-term initiative (see Appendix B). The goals of eDib are to expand the use of the
        Internet for completing disability-related forms, to automate the disability claims intake
        process, to provide electronic access to disability-related information and ultimately to
        produce a paperless disability process. SSA’s eDib is expected to move all components
        involved in disability claims adjudication and review to an electronic business process
        through the use of an electronic disability folder. These components include the field
        offices (FO), regional offices (RO), program service centers, State disability
        determination services (DDS), and hearing offices. When eDib is fully implemented,
        these components will process claims by electronically accessing and retrieving
        information that is collected, produced and stored as part of the electronic disability
        folder. Through the implementation of eDib, the official claims folder is evolving from
        paper to partially electronic to fully electronic, expected by January 2007.2

        1
          On April 3, 2006, the Commissioner announced the establishment of ODAR. The Office of Hearings
        and Appeals moved from the Office of Disability and Income Security Programs to form the nucleus of
        this new organization.
        2
         During our review, we visited the Tupelo, Mississippi Hearing Office to observe the electronic
        processing of some disability claims. None of the other hearing offices we visited during our review
        conducted electronic processing of claims.
Page 2 – The Commissioner

PRIOR AUDIT WORK

In a May 2001 SSA Office of the Inspector General (OIG) report,3 we found that the
Hearing Office Tracking System (HOTS), the predecessor to CPMS, had inaccurate
data and lacked consistent management controls over data inputs. We recommended
ODAR establish consistent quality assurance reviews of the data in HOTS. CPMS was
established, in part, to improve data reliability and management controls. CPMS
implementation began in hearing office pilot sites in December 2003 and by
August 2004, it was operational in all 140 hearing offices.4

SCOPE AND METHODOLOGY
Our goals of this review were to test (1) the accuracy of four key CPMS management
reports and (2) assess the role of CPMS in terms of performance and employee
experiences when using the system. We visited hearing offices5 and ROs where we
interviewed administrative law judges (ALJ), managers and staff.6 See Appendix C for
additional information on our scope and methodology and Appendix D for office
selection.

RESULTS OF REVIEW
The CPMS management reports we tested were accurate, though ODAR managers did
not always use the CPMS reports in their workload management. For instance, we
found that claims were not being processed timely because the hearing offices were
waiting extended periods of time for the claim folder to be sent from the FOs. Although
the CPMS management reports noted the delays, hearing office managers were not
taking action on these claims. Hearing office employees told us they received adequate
CPMS training, and we observed that they were skilled at using CPMS to manage their
workloads. However, we found that hearing office staff need training in using the
appropriate codes for tracking potentially violent claimants. Moreover, CPMS does not
have an electronic indicator on the scheduling sheet that would allow hearing office
employees to readily identify potentially violent claimants prior to their hearing. Finally,
SCTs told us they need additional training in extracting pertinent claim information from
SSA’s systems related to incoming claims.


3
 SSA OIG, Performance Measure Review: Reliability of the Data Used to Measure the Hearing Process
(A-02-98-91003), May 2001. See Appendix F for related OIG reports.
4
    See Appendix B for background on the development and implementation of CPMS.
5
 Manchester, New Hampshire (NH); Los Angeles (downtown), California (CA); Seattle, Washington
(WA); Tupelo, Mississippi (MS); Queens, New York, (NY); and Morgantown, West Virginia (WV).
6
 We interviewed case intake specialists (CIS), case technicians, senior case technicians (SCT), lead
case technicians (LCT), hearing office system administrators, group supervisors (GS), hearing office
directors (HOD), ALJs, and hearing office chief administrative law judges (HOCALJ).
Page 3 – The Commissioner

CPMS MANAGEMENT REPORTS

We reviewed four key CPMS management reports and determined that each accurately
listed the location and status of claims in the hearing offices (see Table 1).7 Since this
was our initial audit of CPMS, we decided to focus our accuracy tests on key
management information reports that hearing office managers use regularly to examine
the overall workload, such as the age and current status of the workload. Below is a
summary of what is contained in each of these key CPMS management reports:8
•     Workload Summary by Status report: The Workload Summary by Status report
      provides a snapshot view of the status of all claims in the hearing office (see
      Appendix E for a flow diagram of the hearing process and an explanation of the main
      types of status that are used for tracking claims as they flow through the hearing
      process). For our review, we examined claims in Mail/Closed status.
•     Pending Claims report: The Pending Claims report identifies all pending claims in
      the hearing office. For our review, we examined claims that were logged into CPMS,
      but had not yet been assigned to a hearing office clerk for processing.
•     Workload Detail by Age report: The Workload Detail by Age report allows hearing
      office managers to view claims by specified dates. For our review, we focused on
      claims that were greater than or equal to 442 days old.9
•     No Status Change report: The No Status Change report allows managers to identify
      claims that are held in a particular hearing status beyond a benchmarked time. For
      our review, we examined claims that were 10 days past the benchmark among all
      the types of status.

To test the accuracy of the four CPMS management reports, we (a) requested ODAR
generate CPMS management reports a few days prior to our arrival in each of the
hearing offices; (b) generated a random sample of 50 claims from each of the CPMS
management reports; (c) correlated the random numbers to the numbered
computerized inventory; (d) tracked the 50 selected sample items from CPMS to the
claim folder’s actual physical location and processing status; and (e) cross-checked the
claim folder against the CPMS inventory for that day to determine its existence on the
day of our sample.




7
 See Appendix D for a detailed discussion of our hearing office selection methodology and see Appendix
E for an illustration of the status placed on a claim as it progresses through ODAR’s hearing process.
8
    ODAR management refers to these management reports as “Big Picture” reports.
9
 In its Revised Final Fiscal Year (FY) 2006 Annual Performance Plan, SSA increased the time of the
average processing time goal for SSA hearings from 442 days to 467.
Page 4 – The Commissioner

     Table 1: CPMS Management Report Test Results (July to November 2005)
                                                                    Number of
                                    Number of                       Claims that
                                     Claims in      Number of           Met            Percent of
        CPMS Management                 the           Claims       Measurement          Claims
          Report Tested             Population       Sampled       Characteristic       Found
 Workload Summary by
 Status report1 (claims in            1,435            300               300             100%
 Mail/Closed status)
 Pending Claims report2
 (claims in unworked status)         14,957            300               299            99.67%
 Workload Detail by Age
 report2 (claims greater than        10,641            300               300             100%
 or equal to 442 days)
 No Status Change report3
 (claims more than 10 days            3,577            300               300             100%
 past the benchmark in all
 types of status)
Notes: 1. We planned to review 50 claims in Mail status at each of the six hearing offices. For those
          hearing offices that did not have 50 claims in Mail status, we supplemented our sample with
          closed cases found in a CPMS Disposition report.
       2. We randomly selected a sample of 300 claims (50 from each hearing office at 6 hearing
          offices) from the Pending Claims and Workload Detail by Age reports.
       3. We selected a sample of 300 claims (50 from each hearing office at 6 hearing offices) from the
          No Status Change reports.


Workload Summary by Status Report

We found that the Workload Summary by Status report accurately listed the location
and status for the 300 claims that we reviewed. The hearing offices located all of the
claim folders and the status of the claim was coded correctly in CPMS. Hearing office
managers10 use the Workload Summary by Status report to:

•     determine how monthly disposition11 goals could be accomplished;
•     analyze each status and the pending per ALJ to determine any imbalances;
•     determine the need to shift staff focus based on workload imbalances; and
•     determine claims that could be closed by the end of the day.

By examining the number of claims in each status, hearing office managers can
measure how close the hearing office is to meeting its monthly disposition goal.12
10
     The HOCALJ, HOD, and GS are considered the managers in a hearing office.
11
  Dispositions are defined as the number of hearing requests processed, including favorable and
unfavorable decisions issued, as well as requests that are dismissed.
12
   For a discussion of ODAR’s hearing office performance goals, see our March 2005 report, The Effects
of Staffing on Hearing Office Performance (A-12-04-14098).
Page 5 – The Commissioner

Under its Strategic Goal for Service, SSA designated the number of SSA hearings
processed (dispositions) as one of its Key Performance Indicators (KPI).13

We also reviewed whether the ALJ’s final decision in CPMS matched the ALJ’s final
decision in the paper folder.14 We chose the Workload Summary by Status report and
focused on claims in MAIL15 status. We selected 50 final ALJ decisions to review at
each of the hearing offices we visited. We initially planned to test 50 claims in MAIL
status. However, during our first hearing office visit, we realized that there were not
enough claims in MAIL status to get our sample size to 50. Instead, we supplemented
our sample using closed ALJ claims from the CPMS Disposition report from each of the
hearing offices that we visited. The CPMS Disposition report contains a record of the
closed claims in each hearing office. We obtained the paper folder for all 300 final ALJ
decisions, and compared those 300 final ALJ decisions to the decisions recorded in
CPMS. All 300 final ALJ decisions recorded in CPMS matched the final ALJ decisions
found in the paper folder.

Pending Claims Report

We found that the Pending Claims report accurately listed the location and status for
299 of 300 claims we reviewed. The hearing offices located 299 claim folders and the
status of each claim was coded correctly in CPMS. One claim folder could not be found
and the FO had to reconstruct the claim. Pending claims are defined as any claim in a
hearing office that has not been closed, regardless of the stage of processing. Under its
Strategic Goal for Service, SSA designated the number of SSA hearings pending as
one of its KPIs.16

The number of pending claims in ODAR’s hearing offices increased from 392,387 in
FY 2001 to 708,164 claims in FY 2005—an 80 percent increase. SSA’s overall level of
service to the public is heavily affected by the number of claimants awaiting hearing
decisions. When a claimant has already waited for the initial decision, waiting even
longer for a decision at the hearing level often increases the claimant’s economic
burden.
Workload Detail by Age Report

13
     See SSA’s Performance and Accountability Report for FY 2005, pages 16 and 17.
14
  Prior to the implementation of CPMS, hearing offices used HOTS to process and track case workloads.
Due to weaknesses related to internal controls governing ALJ’s decisions, ODAR implemented the
Automated Verification Input Database (AVID) in August 2000 to improve the internal controls over ALJ
decisions. AVID requires all ALJs to personally input a validation of their decision before the claim can be
closed in the hearings process. By August 2004, CPMS replaced HOTS in all ODAR hearing offices, and
AVID was incorporated as an integral part of CPMS. See ODAR’s AVID guidelines for ALJs in its
Hearings, Appeals and Litigation Law (HALLEX) manual - Program Operations Manual System, section
DI 80550.110: ALJ Automated Verification Input Database (AVID) Process.
15
     MAIL status indicates that the claim was signed by the ALJ and is ready for release.
16
     See SSA’s Performance and Accountability Report for FY 2005, pages 16 and 17.
Page 6 – The Commissioner

We found that the Workload Detail by Age report accurately listed the location and
status for the 300 claims we reviewed. The hearing office located all the claim folders
and the status of each claim was coded correctly in CPMS. SSA has designated
average processing time for hearings as a KPI under its Strategic Goal for Service.
Average processing time for hearings has increased from 316 days in FY 1999 to
415 days in FY 2005.

Prior to our arrival in each of the six hearing offices, we asked ODAR to provide a
Workload Detail by Age report. Table 2 is a summary of the data found in the Workload
Detail by Age reports for five of the six hearing offices we visited. As Table 2 illustrates,
over 35 percent of claims in the Seattle, Washington and Queens, New York Hearing
Offices were over 442 days old.17 Moreover, both hearing offices had more than 550
claims greater than 2 years old. All of the hearing offices had pending claims that were
over 2 years old, and five of the hearing offices had at least one claim pending that was
over 3 years old.
                         Table 2: Workload Detail by Age Reports
                                      Number of           Percent of        Number of
                          Total     Claims Greater         Pending           Claims
                        Claims      than or Equal        Greater than      Greater than         Oldest
  Hearing Office        Pending      to 442 Days          442 Days         2 Years Old           Claim
 Manchester, NH           -----1           349                ----              26           1,412 days
 Los Angeles, CA          3,789            613               16%                20           1,338 days
 Seattle, WA             11,112          4,084               37%               557           2,205 days
 Tupelo, MS               3,572            896               25%                75           1,291 days
 Queens, NY               5,273          1,895               36%               668           4,158 days2
 Morgantown, WV           2,205             49                 2%                 3             866 days
 Totals                  25,951          7,886                                1,349
Notes: 1. We performed our initial walk-though and tests of CPMS reports in the Manchester Hearing
          Office. We did not obtain the total number of pending claims in the Manchester Office, and
          could not create the total pending because of the ever changing nature of the workload. We
          modified our procedures to obtain this information for the rest of our visits.
       2. The Request for Hearing date was June 10, 1994. Since the claim had two court remands,
          the claim was not in the possession of the hearing office the entire time. The latest
          disposition was issued on October 29, 2005 and it was an unfavorable decision.

No Status Change Report

We found that the No Status Change report accurately listed the location and status for
all 300 claims we reviewed. The hearing office located all of the claim folders and the
status of each claim was coded correctly in CPMS. However, most of the hearing office
managers at the hearing offices we visited were not using this report to identify and take
action on claims that were staying in the Master Docket18 (MDKT) status for extended

17
   Beginning in FY 2000, the average processing time indicator was redefined to represent the average
elapsed time, from the hearing request date until the date of the notice of the decision, of all hearings
level cases processed during all months of the FY.
18
   Hearing offices maintain a Master Docket system which contains all Requests for Hearings and
remanded claims. MDKT status is the initial step in the hearing process. Claims in MDKT status indicate
Page 7 – The Commissioner

periods of time. In addition, CISs were not following procedures for requesting the FO
send the claim to the hearing office.

The CPMS No Status Change report provides a listing of claims that are not being
processed in a timely and efficient manner. If a claim stays in any status past a
benchmark time,19 the claim will appear in the No Status Change report.

We sampled and reviewed claims in each status. During our review of claims in the
MDKT status, we discovered that 230 claims were staying in this status, while the
hearing offices waited for the claim folders (see Table 3). The claim cannot move into
the next stage of processing until the hearing office receives the claim folder. In
addition, 58 of those claims were in MDKT status over 100 days. One claim was held in
MDKT status over 400 days, while the hearing office waited for the claim folder to be
sent by the FO. When we asked why this claim was in MDKT status for over 400 days,
the CIS immediately called the RO and asked for assistance. The RO called the FO
and shortly after that, the claim folder was sent to the hearing office, and the claim was
moved to the next stage of processing.

Table 3: CPMS No Status Change Reports - Claims Held in Master Docket Status
                                                        Number of Claims
                            Number of Claims in         in Master Docket       Time a Claim was in
                            Master Docket Status             Status            Master Docket Status
      Hearing Office        Benchmark (30 days)           Over 100 days              (Median)
 Manchester, NH                       12                        7                     123 days
 Los Angeles, CA                      37                       11                      44 days
 Seattle, WA                         105                       21                      64 days
 Tupelo, MS                           30                        6                      88 days
 Queens, NY                           32                        5                      39 days
 Morgantown, WV                       14                        8                    109 days
 Totals                              230                       58

The problem of waiting for claim folders was not isolated to waiting only for the paper
claim folder to arrive. We also observed that some electronic claims in the Tupelo,
Mississippi Hearing Office were not received timely. When the CIS in the Tupelo
Hearing Office tried to open these electronic claims in CPMS, the relevant claimant
information was not available on the screen.20 Moreover, the Tupelo HOD was unsure
about which procedures to follow for requesting these electronic claim folders. The
HOD gave the Jackson, Mississippi, DDS a listing of these electronic cases so they
could be resolved.

that a request for hearing has been received in the hearing office, and the hearing office may or may not
have the claims file.
19
  On March 10, 1999, ODAR’s Chief Administrative Law Judge implemented the use of timeframes
(benchmarks) for the maximum length of time a claim should be allowed to remain in a processing status.
20
     A folder bar-code was all that appeared on the screen.
Page 8 – The Commissioner


When interviewing the CISs about which procedures they followed for untimely receipt
of paper claim folders, we learned that the CISs were not following the Hearings,
Appeals and Litigation Law (HALLEX) manual procedures21 for requesting receipt of
these claim folders. The HALLEX procedures call for the RO to be contacted within
20 days if the claim folder has not been received.

CPMS OPERATIONS

ODAR employees told us they received sufficient CPMS training and we observed that
hearing office employees were skilled at using CPMS to manage their workloads. Also,
ODAR regional managers believed that having real-time access to CPMS management
reports aided hearing office productivity. However, we found that hearing office staff
were not aware of the appropriate codes for tracking potentially violent claimants.
Moreover, CPMS does not have an indicator on the scheduling sheet that would allow
hearing office employees to readily identify potentially violent claimants prior to their
hearing. Finally, SCTs told us they need additional training in extracting pertinent claim
information from SSA’s systems related to incoming claims.

Employee’s Use of CPMS

While visiting hearing offices and ROs, we interviewed ALJs, managers and staff and
found that:

•     In response to our questions on CPMS training, the majority of the hearing office
      employees stated that they received sufficient training.
•     Hearing office staff were skilled at using CPMS to track and manage their case
      assignments. We observed staff using CPMS to track and process the cases
      assigned to them and using management reports to track their own performance.
•     RO managers told us that having real-time access to hearing office CPMS
      management reports has helped them identify workload problems immediately and
      discuss solutions with hearing office managers over the phone.




21
     See HALLEX section I-2-1-10: Claim Files.
Page 9 – The Commissioner

Identifying Potentially Violent Claimants

Our review found that staff at some of the hearing offices were not using CPMS claim
characteristic codes to track potentially violent claimants.22 Some staff told us that they
were not aware of the code, while other staff told us that they do not use the code.
Because the code is not being used, the hearing offices were not able to generate
reports on the potentially violent claimants23 scheduled for hearings before an ALJ.

Two CPMS claim characteristic codes could be placed on a claim to indicate a
claimant’s potential for violence: (1) “CRITICAL – Potentially Homicidal;” and
(2) “OTHER – Potentially Violent.”

HOTS used a bold red banner on the report sheet for claims that required additional
security. The banner was an easily recognizable tool in alerting the hearing office
scheduler that additional security was needed at the hearing. If CPMS could generate a
similar banner24 that meets SSA’s commitment of creating software that is Section 508
compliant for persons with disabilities, the scheduler could then generate a security alert
for all hearing participants.25

Training on Querying Claimant Records

We identified the querying of claimant records as another area where training would aid
the effectiveness of the hearing process. One-third of the hearing office SCTs and
LCTs we interviewed stated they need additional training in using the Personal
Communications (PCOM) database to query claimant records. PCOM queries are used
to obtain the claimant’s original application for disability insurance benefits, identify prior
filings, obtain the alleged onset date, and show the claimant’s history of Supplemental
Security Income. Hearing office SCTs and LCTs run queries in PCOM to extract the
claimant history information when performing their claim development duties. Claim
development duties involve organizing and marking exhibits to prepare the claim for a
hearing before an ALJ. ALJs need this information to make an informed decision.
Additional training could assist the hearing offices with more timely, as well as more
complete, preparation for upcoming hearings.


22
    See HALLEX I-2-1-37 Claimant Threatens Violence. Hearing office and RO personnel must be aware
of the possibility of a claimant’s potentially violent behavior, and be prepared to respond in a prompt and
resourceful manner.
23
   SSA’s OIG has conducted numerous audits examining safety and security in ODAR’s hearing offices.
In FY 2005, we issued 10 audit reports (1 report for each of SSA’s 10 regions) that detailed our security
concerns in hearing offices.
24
  ODAR is working with SSA’s Office of Systems to implement a security alert that is Section 508
compliant for persons with disabilities.
25
  Besides the claimant, other persons attending hearings would include the ALJ, the contract hearing
reporter, and, if needed, the claimant representative, medical expert, vocational expert and interpreter.
Page 10 – The Commissioner

CONCLUSION AND RECOMMENDATIONS
We found the CPMS management reports to be accurate, but hearing office managers
need to use these reports as a tool for improving productivity and ensuring appropriate
action on stagnant claims. Hearing office employees were skilled at using CPMS to
track and manage their workloads, however, improvements could be made in the areas
of (1) requesting receipt of claim folders from the FOs, (2) highlighting claims that might
require additional security, and (3) querying claimant records with PCOM.

To improve overall productivity and ensure appropriate security warnings at the hearing
offices, we recommend SSA:

1. Remind hearing office managers about the value of using the CPMS No Status
   Change report to identify and take action on stagnant claims;

2. Educate hearing office employees on the HALLEX procedures for untimely receipt of
   the claim folder, using the proper claim characteristic for potentially violent
   claimants, and PCOM queries; and

3. Create a Section 508 compliant electronic indicator to identify potentially violent
   claimants.

AGENCY COMMENTS

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix G.




                                             S
                                             Patrick P. O'Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Background on Planning and Implementation of the Case Processing
             and Management System

APPENDIX C – Scope and Methodology

APPENDIX D – Hearing Office Selection Criteria

APPENDIX E – Hearing Office Process Flow Diagram

APPENDIX F – Related Social Security Administration Office of the Inspector General
             Reports

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
AC        Associate Commissioner
ALJ       Administrative Law Judge
AVID      Automated Verification Input Database
CIS       Case Intake Specialist
CPMS      Case Processing and Management System
DDS       Disability Determination Services
eDib      Electronic Disability
FO        Field Office
FY        Fiscal Year
GAO       Government Accountability Office
GS        Group Supervisor
HALLEX    Hearings, Appeals and Litigation Law
HOCALJ    Hearing Office Chief Administrative Law Judge
HOD       Hearing Office Director
HOTS      Hearing Office Tracking System
IVT       Interactive Video Training
KPI       Key Performance Indicator
LCT       Lead Case Technician
MDKT      Master Docket
ODAR      Office of Disability Adjudication and Review
ODSSIS    Office of Disability and Supplemental Security Income Systems Systems
OIG       Office of the Inspector General
PCOM      Personal Communications
RAD/JAD   Rapid Applications Development/Joint Application Design
RO        Regional Office
SCT       Senior Case Technician
SSA       Social Security Administration
                                                                                Appendix B

Background on Planning and Implementation of
the Case Processing and Management System
In May 2002, the Commissioner of Social Security announced the Social Security
Administration’s (SSA) plan to implement the electronic disability (eDib) initiative. In
March 2003, the Associate Commissioner (AC) of the Office of Disability Adjudication
and Review (ODAR)1 issued the first in a series of memorandums to inform ODAR
employees about the eDib initiative. The AC stated that eDib will eventually replace the
paper disability claims folder with an electronic record containing all information required
to process disability claims. He also provided information on the hearing office Case
Processing and Management System (CPMS), which replaced the Hearing Office
Tracking System (HOTS). CPMS was tested and designed to control and process
claims and produce management reports (see Figure B-1 for a timeline illustrating the
development and implementation of CPMS).

In the development of CPMS, SSA’s Office of Systems and ODAR conducted Rapid
Applications Development/Joint Application Design (RAD/JAD) sessions. During the
RAD/JAD sessions, ODAR’s business requirements were addressed. ODAR’s systems
requirements were identified from ODAR field and headquarter employees. The
requirements-gathering process was completed in June 2003.




1
  On April 3, 2006, the Commissioner announced the establishment of ODAR. The Office of Hearings
and Appeals moved from the Office of Disability and Income Security Programs to form the nucleus of
this new organization.


                                                 B-1
    Figure B-1: Timeline Illustrating the Development and Implementation of CPMS




ODAR and the Office of Disability and Supplemental Security Income Systems
(ODSSIS) worked collaboratively in developing CPMS. The team members worked at
defining the detailed functional requirements needed for ODSSIS to write the program
code for the CPMS system. ODAR’s CPMS team included participants from ODAR
headquarters and hearing offices throughout the country.

In June 2003, the CPMS Training Plan was completed, the first ODAR eDib Interactive
Video Training aired and the eDib/CPMS team was introduced to all ODAR employees.
The team consisted of employees from ODAR’s Office of Management and ODAR field
employees detailed from hearing offices and regional offices. Also at this time, the first
bimonthly eDib/CPMS conference call with ODAR management was conducted.

Twenty ODAR employees, made up of a mix of hearing office employees in all job
categories, came from all over the country to SSA headquarters to perform CPMS
validation2 in September 2003.

In preparation for the implementation of CPMS, members of the Training and
Implementation Team spent a week in November 2003 at each of the five hearing office
pilot sites, training the staff on the use of CPMS. The training included classroom and




2
 Validation is the name for the procedure SSA uses to test any new business system from computer
programs to intake forms.


                                                B-2
hands-on training, which was geared towards the specific job duties of the individuals.
In December 2003, CPMS was launched in the five pilot hearing offices.

             •   New York, New York (Region II)
             •   Baltimore, Maryland (Region III)
             •   Raleigh, North Carolina (Region IV)
             •   Evansville, Indiana (Region V)
             •   Sacramento, California (Region IX)

In March 2004, the CPMS training and implementation schedule was released (see
Table B-1).

              Table B-1: CPMS Training and Implementation Schedule
  Regions        Hearing Office Staff Training         CPMS Implementation
    5, 6              April 19 – 23, 2004                   May 2004
   4, 10              May 17 – 21, 2004                     June 2004
  1, 7 & 9            June 14 – 18, 2004                    July 2004
  2, 3 & 8            July 19 – 23, 2004                   August 2004

Training in each hearing office was conducted 1 month prior to the CPMS
implementation. One of the lessons learned from the CPMS hearing office pilots was
the importance of having a subject matter expert in the hearing office when training was
being conducted. Therefore, ODAR decided to have the subject matter expert remain in
the hearing office while the training was conducted to answer any questions asked by
the employees. In addition, ODAR prepared a “roadmap” for the hearing offices on how
to get ready for CPMS. The CPMS website contained information on what each office
needed to do 1 month prior to implementation, 2 weeks prior to implementation, 1 week
prior to implementation, and on the day of conversion.

In May 2004, a Help Desk Telephone Line was established in ODAR headquarters to
assist the hearing offices as they began using CPMS. In June 2004, the CPMS
management report website was functional and staff in the Division of Information
Technology Integration had developed a database for individual hearing office reports
and reports currently not included in CPMS. By August 2004, CPMS was implemented
nationwide.




                                           B-3
                                                                      Appendix C

Scope and Methodology
 •   Reviewed Social Security Administration (SSA) Program Operations Manual
     System, and the Hearings, Appeals and Litigation Law manual on policies and
     procedures on the Office of Disability Adjudication and Review (ODAR) disability
     process, Government Accountability Office’s (GAO) standards for internal
     controls, Office of Management and Budget Circular A-123, Management’s
     Responsibility for Internal Control, and ODAR’s Associate Commissioner’s
     Memorandums on the progress of implementing the Case Processing and
     Management System (CPMS).

 •   Reviewed Office of the Inspector General reports, GAO testimonies and reports,
     testimony by SSA’s Commissioner before the House Committee on Ways and
     Means, Subcommittee on Social Security and SSA’s Performance and
     Accountability Reports.

 •   Interviewed ODAR executives and staff. We visited the Manchester,
     New Hampshire; Los Angeles (downtown), California; Seattle, Washington;
     Tupelo, Mississippi; Queens, New York; and Morgantown, West Virginia hearing
     offices where we interviewed a total of 49 hearing office employees including:
     case intake specialists, case technicians, senior case technicians, lead case
     technicians, hearing office system administrators, group supervisors, hearing
     office directors, administrative law judges (ALJ), and hearing office chief
     administrative law judges. We also visited the Boston Regional Office (RO), and
     Seattle RO where we interviewed regional chief administrative law judges,
     regional management officers, regional directors of operations and
     administration, regional system administrators and regional management
     analysts. We conducted telephone interviews with ALJs, managers and staff at
     the San Francisco RO, New York RO and Philadelphia RO.

 •   Reviewed SSA updates on its electronic disability initiative.

 •   Using ODAR’s National Ranking Reports for the end of the second quarter of
     Fiscal Year 2005, created spreadsheets ranking small, medium and large
     hearing offices on dispositions per day per ALJ and average processing time
     (see Appendix D for a further discussion on our hearing office selection criteria).

 •   Tested the accuracy of four CPMS management reports by determining whether
     the computerized inventory accurately listed the location and status of the claim
     folders in the hearing office.




                                          C-1
We did not independently audit the performance data found in SSA’s Performance and
Accountability Reports or ODAR’s National Ranking Reports. With the exception of the
reports reviewed in this audit, we did not test the accuracy of the information within
CPMS. In addition, we did not test the completeness of the data in CPMS. The entity
audited was ODAR. We conducted our audit from July 2005 through February 2006 in
accordance with generally accepted government auditing standards.




                                          C-2
                                                                               Appendix D

Hearing Office Selection Criteria
HEARING OFFICE SELECTION CRITERIA

The Social Security Administration’s (SSA) Office of Disability Adjudication and Review
(ODAR) has 140 hearing offices throughout the United States and Puerto Rico. The
hearing offices ranged in size with small offices (fewer than seven administrative law
judges (ALJ)), medium hearing offices (seven or eight ALJs) and large hearing offices
(more than eight ALJs). All of the hearing offices have the same core staff and perform
the same function—to hold hearings and issue decisions as part of SSA's process for
determining whether a person may receive benefits.

We selected six hearing offices based on a combination of factors. One factor was
hearing office size (small, medium and large). Another factor was hearing office
performance. We used two measures that ODAR deemed most important:
(1) disposition rate (number of dispositions per day per ALJ) and (2) average processing
time. We also took into consideration a wide geographic distribution to maximize
national coverage. Finally, to the extent possible we selected hearing offices close to
ODAR’s Regional Offices (RO) where we also performed some field work.

HEARING OFFICES SELECTED FOR THIS REVIEW

We selected one small and one medium hearing office in the top 20 percent of
performance, for both disposition rate and average processing time, see Table D-1.

 Table D-1: Hearing Offices Selected in the Top 20 Percent of Performancea
        Hearing Office Name                     Region           Hearing Office Size
 Los Angeles, (downtown) California               9                    Small
 Morgantown, West Virginia                        3                   Medium
Notes: a. Performance level based on the number of dispositions per day per ALJ and average
          processing time at the end of the 2nd quarter of Fiscal Year (FY) 2005.

We selected one medium and one large hearing office in the bottom 20 percent of
performance, see Table D-2.




                                                D-1
Table D-2: Hearing Offices Selected in the Bottom 20 Percenta of Performance
         Hearing Office Name                        Region            Hearing Office Size
 Queens, New York                                      2                   Medium
 Seattle, Washington                                  10                    Large
Notes: a. Performance level based on the number of dispositions per day per ALJ and average
          processing time at the end of the 2nd quarter of FY 2005.

The other hearing offices selected for this review can be seen in Table D-3.

                          Table D-3: Other Hearing Offices Selected
        Hearing Office Name                         Region            Hearing Office Size
 Tupelo, Mississippia                                 4                     Small
 Manchester, New Hampshireb                           1                    Medium
Notes: a. ODAR invited us to visit this hearing office so that we could observe the operation of the Case
          Processing and Management System (CPMS) in a hearing office that is using the electronic
          folder.
       b. ODAR invited us to visit this hearing office to conduct our initial walk-through. After finishing
          our walk-through of the Manchester Hearing Office, we visited the Boston RO and conducted
          interviews with the RO managers and staff.




                                                    D-2
                                      Appendix E

Hearing Office Process Flow Diagram
                                                                                 Appendix F

Related Social Security Administration Office of
the Inspector General Reports

      Common
    Identification                       Report Title                                 Date
       Number                                                                        Issued
                     Performance Indicator Audit: Hearings and
A-15-05-15113                                                                    January 2006
                     Appeals Process
                     The Effects of Staffing on Hearing Office
A-12-04-14098                                                                     March 2005
                     Performance
                     Access to Secured Areas in Region III Hearing
A-12-05-35003                                                                   February 2005
                     Offices1 (Limited Distribution)
A-02-04-14072        Performance Indicator Audit: Processing Time                October 2004
                     Summary of the Office of the Inspector
A-02-03-13033        General’s Reviews of the Social Security
                                                                               September 2003
                     Administration’s Performance Data
                     Performance Measure Review: Reliability of
A-12-00-10057        the Data Used to Measure the Office of
                                                                                   April 2002
                     Hearings and Appeals Decisional Accuracy
                     Controls Over Administrative Law Judges’
A-06-00-10026                                                                  September 2000
                     Decisions (Limited Distribution)
                     Office of Hearings and Appeals’ Response to
A-06-97-71006        Fraud at the New Orleans Hearing Office                      March 1999
                     (Limited Distribution)




1
  The Social Security Administration’s (SSA) Office of the Inspector General has conducted numerous
audits examining safety and security in hearing offices. In Fiscal Year 2005, we issued 10 reports
(1 report for each SSA region) that detailed our security concerns in hearing offices.
                  Appendix G

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      May 19, 2006                                                          Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Case Processing And Management System
           And Workload Management" (A-12-06-26012) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




                                                         G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "CASE PROCESSING AND MANAGEMENT SYSTEM AND WORKLOAD
MANAGEMENT" (A-12-06-26012) -- INFORMATION

Thank you for the opportunity to review and comment on the draft report.

We are pleased that the draft audit report acknowledges that the Case Processing and
Management System (CPMS) captures management information accurately and that no
employee complaints regarding the system have been noted, as CPMS is one of the key
components of SSA’s eDib initiative.

We agree with the recommendations and have begun implementation. We agree that the proper
use of the CPMS management reports would facilitate more efficient case processing.

Our specific responses to the report's recommendations follow.

Recommendation 1

Remind hearing office managers about the value of using the CPMS "No Status Change" report
to identify and take action on stagnant claims.

Response:

We agree. The Office of Disability Adjudication and Review’s (ODAR) Office of the Chief
Administrative Law Judge (OCALJ) is already performing this practice with information from
CPMS. OCALJ identifies stagnant claims and sends the Social Security numbers to the hearing
offices (HO), advising them that the status of particular cases has not changed. OCALJ requests
these hearing offices to submit reports explaining the reason for no change in status and what is
being done to move the cases.

Recommendation 2

Educate hearing office employees on the Hearings, Appeals and Litigation Law Manual
procedures for untimely receipt of the claim folder, using the proper claim characteristic for
potentially violent claimants, and Personal Communications (PCOM) queries.

Response:

We agree. ODAR will issue a memorandum to the HOs to remind them of the importance of
following procedures for untimely receipt of claim folders, using the proper case characteristic
for potentially violent claimants, and providing PCOM query reading training (emphasizing the
importance of obtaining these queries when establishing a case in the master docket and
throughout case processing). We expect to release the memorandum to the HOs in May 2006.




                                                G-2
Recommendation 3

Create a Section 508 compliant electronic indicator to identify potentially violent claimants.

Response:

We agree. Creating an electronic indicator to identify potentially dangerous claimants would
heighten security for all hearing office staff. The recommendation is technologically feasible.
ODAR will submit an Information Technology Advisory Board request for consideration of
changes to implement a flag or an alert that will comply with Section 508 to identify potentially
violent claimants in CPMS.

[In addition to the comments above, SSA provided technical comments which have
been addressed, where appropriate, in this report.]




                                               G-3
                                                                       Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Michael Maloney, Audit Manager, (703) 578-8844

Acknowledgments

In addition to those named above:

   Nicholas Milanek, Auditor-in-Charge

   Melissa McDaniel, Auditor

   Abraham Pierre, Auditor

   Ellen Silvela, Auditor

   Brennan Kraje, Statistician

   Annette Derito, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-12-06-26012.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
